( l­
'..

   -Ir..l''',ua
""~'~4"OVIC£~S'''S~
                          DEPARTMENT
                          DEPARTMENTOF
                                     OFHEALTH
                                       HEALTH&.
                                              &. HUMAN
                                                 HUMAN SERVICES
                                                       SERVICES                                                         Office of
                                                                                                                        Office of Inspector
                                                                                                                                  Inspector General



                                                                                                                        Washington, D.C.
                                                                                                                        Washington,
                                                                                                                                            General



                                                                                                                                     D.C. 20201
                                                                                                                                           20201




                                                                 MAR 25
                                                                 MAR     2009
                                                                     25 2009

                 TO:
                 TO: Charlene  Frizzera
                          Charlene Frizzera
                                         Acting Administrator
                                         cente;;o~iCaid
                                         cente;;o~iCaid       Services

                                                                  Services


                 FROM:
                 FROM: ¿h E. Vengn
                                 ~;:;~ty
                             E. Vengrin  ~h Inspector
                                ~;:;~ty Inspector     General
                                                  General  forforAudit
                                                                  AuditServices

                                                                        Services


                  SUBJECT:
                  SUBJECT: Review of 
   Review of High-Dollar Payments for Inpatient Services Processed by National
                                         Governent
                                         GovernmentServices
                                                     ServicesininIlinois,
                                                                   Illinois,Indiana,
                                                                              Indiana,Kentucky,
                                                                                       Kentucky,and
                                                                                                 andOhio
                                                                                                     Ohiofor
                                                                                                          forCalendar
                                                                                                             Calendar Years
                                                                                                                      Years
                                         2004 Through
                                         2004 Through 2006
                                                      2006 (A-05-08-00028)

                                                            (A-05-08-00028)


                 Attached is an advance copy of    of our final report on high-dollar payments for inpatient services
                 processed by
                 processed       by National
                                    NationalGovernment    Servicesin
                                             Governent Services      inIlinois,
                                                                        Illinois,Indiana,
                                                                                   Indiana,Kentucky,
                                                                                             Kentucky, and
                                                                                                       and Ohio
                                                                                                           Ohio for
                 calendar years
                 calendar       years2004
                                     2004through
                                           through2006.
                                                    2006. We
                                                           Wewill
                                                                wil issue
                                                                    issue this
                                                                            this report
                                                                                  reporttotoNational
                                                                                            NationalGovernment    Services
                                                                                                      Governent Services
                 within 5 business days.      This audit
                                        days. This audit was
                                                         was part
                                                              part of
                                                                   ofaa nationwide
                                                                         nationwide review of   of payments for inpatient
                 services
                 services of 
 of $200,000 or more (high-dollar payments).




                  Our objective was to determine whether selected high-dollar Medicare payments that National
                  Government   Servicesmade
                  Governent Services    madetotohospitals
                                                 hospitalsfor
                                                           forinpatient
                                                               inpatientservices
                                                                         services were
                                                                                  were appropriate.
                                                                                       appropriate.

                 Of
                 Of the 303
                         303 high-dollar
                             high-dollar payments
                                           paymentsthat
                                                      thatNational
                                                           NationalGovernment      Services made
                                                                    Governent Services      made toto hospitals for
                 inpatient services
                           services for
                                     for calendar
                                         calendar years
                                                   years 2004
                                                          2004through
                                                               through2006,39
                                                                        2006,39 were
                                                                                   were appropriate.   The remaining
                                                                                         appropriate. The
                 264 payments
                     payments included
                                 included net
                                           net overpayments
                                               overpayments totaling
                                                              totaling $7,444,904.
                                                                       $7,444,904. At the start of of our audit, hospitals
                 had
                 had refunded  overpayments totaling
                      refuded overpayments      totaling $2,752,167
                                                         $2,752,167 for
                                                                     for 44 claims
                                                                            claims but
                                                                                    but had
                                                                                        had not
                                                                                            not refunded
                                                                                                refunded net
                 overpayments
                 overpayments totaling $4,692,737 for 260 claims.

                 Contrary       to Federal
                 Contrary to Federal             guidance,
                                     guidance, hospitals          hospitals
                                                          inaccurately            inaccurately
                                                                       reported the number of     reported the number of billing   units for
                                                                                                                           biling units  for

                 blood
                 blood clotting factor, factor, reported incorrect diagnosis and procedure codes, and reported excessive
                 charges
                 charges that resulted in
                              that   resulted      in inappropriate
                                                       inappropriate payments.                 Hospitals attributed most of
                                                                               payments. Hospitals                       of the incorrect claims
                 to
                 to data
                     data entry
                             entryerrors
                                      errorsand  andinsufficient
                                                         insufficientdocumentation.
                                                                             documentation.NationalNationalGovernment    Services made
                                                                                                             Governent Services    made these
                 incorrect      payments
                 incorrect payments because     because        neither     the
                                                                           the   Fiscal     Intermediary Standard   System  nor the Common
                 Working
                 Working File   File had
                                       had sufficient edits in place to detect and prevent the overpayments.

                 We
                 We recommend
                    recommend that
                              that National Government Services:

                        •. recover
                            recoverthe
                                    the $4,692,737
                                         $4,692,737inin identified
                                                         identified net
                                                                     netoverpayments,
                                                                         overpayments,
Page 2 – Charlene Frizzera


    •   use the results of this audit in its provider education activities related to data entry
        procedures and proper documentation, and

    •   consider implementing controls to identify and review all payments greater than
        $200,000 for inpatient services.

In written comments on our draft report, National Government Services agreed with our
recommendations and described corrective actions that it had taken or planned to take.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or Marc Gustafson, Regional Inspector General for Audit Services, Region V, at (312) 353-2618
or through e-mail at Marc.Gustafson@oig.hhs.gov. Please refer to report number
A-05-08-00028.


Attachment
(Æ
\~~
                                   DEPARTMENT
                                   DEPARTMENT OF
                                              OF HEALTH
                                                 HEALTH AND
                                                  OFFICE
                                                 233
                                                        AND HUMAN
                                                   OFFICEOF
                                                 233NORTH
                                                            HUMAN SERVICES
                                                          OF AUDIT
                                                                  SERVICES
                                                             AUDIT SERVICES
                                                     NORTH MICHIGAN
                                                    CHICAGO,
                                                                    SERVICES
                                                            MICHIGANAVENUE
                                                    CHICAGO, ILLINOIS
                                                                        AVENUE
                                                              ILLINOIS 60601
                                                                       60601
                                                                                                                           REGION V
                                                                                                                           REGION   V
                                                                                                                            OFFICE OF
                                                                                                                           OFFICE
                                                                                                                      INSPECTOR
                                                                                                                                   OF
                                                                                                                       INSPECTOR GENERAL
                                                                                                                                  GENERAL




                                                        MAR 3
                                                        MAR 3 00 im
   am
Report Number: A-05-08-00028
       Number: A-05-08-00028

Ms. Sandy
Ms. Sandy Miller
          Miler
 

President
National Government
National              Services
          Governent Services
8115 Knue Road
Indianapolis, Indiana 46250
              Indiana 46250

 Dear Ms.
 Dear Ms. Miler:

          Miller: 


 Enclosed is the U.S. Department of Health
 Enclosed is the U.S. Deparment of 
                      Health     andServices
                                                                and Human Human  (HHS),Services
                                                                                        Offce of
  (HHS), Office of Inspector
 General       (OIG),     final   report     entitled
 General (OIG), final report entitled "Review of 
        "Review       of High-Dollar        Payments     for Inpatient
                                                                                                               Inpatient Services
                                                                                                                         Services
 Processed by
 Processed        by National
                        NationalGovernment
                                       Governent Services  ServicesininIlinois,
                                                                           Illinois,Indiana,
                                                                                       Indiana,Kentucky,
                                                                                                   Kentucky, andand Ohio
                                                                                                                     Ohio for
                                                                                                                          for
 Calendar       Years     2004     Through         2006."
 Calendar Years 2004 Through 2006." We wil forward a copy of 
 We   will  forward      a  copy    of this report to the HHS  action
 official
 offcial notednoted    on thepage
               on the following   following
                                     
             page for review and any action deemed necessary.

 The HHSHHS action
                 action official
                             offcial wilwillmakemakefinalfinaldetermination
                                                                  determinationas asto
                                                                                     toactions
                                                                                        actions taken
                                                                                                 taken on
                                                                                                       on all
                                                                                                           all matters
                                                                                                               matters reported.
                                                                                                                        reported.
 We
 We    request
    request that youthat   you
                     respond      respond
                             to this            to this
                                     offcial within 30 daysofficial    within
                                                            from the date of  30 days from the date of this letter.
                                                                                                               letter. Your
 response should present any comments or additional information that you believe may have a
 bearing on the final determination.

 Pursuant to
           to the
              the Freedom
                  Freedom of of Information
                                Information Act,
                                              Act, 55 U.S.C.§   552, OIG
                                                      U.S.C.§ 552,   OIG reports generally are made
 available to the public to
 available to the public to the  extent that information   in the report   is not subject to exemptions in
 the
 the Act.  Accordingly, this
     Act. Accordingly,    this report
                               report will
                                      wil be posted on thethe Internet
                                                               Internet atathttp://oig.hhs.gov.
                                                                             htt://oig.hhs.gov.

 If you have any questions or comments about this report, please do not hesitate to call me, or
 contact Steve Slamar,
               Slamar, Audit
                       Audit Manager, at (312) 353-7905
                                                 353-7905 or through e-mail at
 Stephen.Slamar@oig.hhs.gov.
 Stephen.Slamar($oig.hhs.gov. Please refer to report number A-05-08-00028 in all
                                Please refer to report
 correspondence.

                                                               Sincerely,


                                                             1n~~-r
                                                             1n~~-y
                                                               Marc Gustafson
                                                               Marc
                                                               Regional Inspector General
                                                               Regional
                                                                for Audit
                                                                for Audit Services


 Enclosure
 Enclosure
Page 2 – Ms. Sandy Miller


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  REVIEW OF HIGH-DOLLAR
  PAYMENTS FOR INPATIENT
   SERVICES PROCESSED BY
   NATIONAL GOVERNMENT
SERVICES IN ILLINOIS, INDIANA,
  KENTUCKY, AND OHIO FOR
      CALENDAR YEARS
    2004 THROUGH 2006




                    Daniel R. Levinson
                     Inspector General

                       March 2009
                      A-05-08-00028
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS), which administers the
program, contracts with fiscal intermediaries to process and pay Medicare Part A claims
submitted by hospitals. The intermediaries use the Fiscal Intermediary Standard System and
CMS’s Common Working File to process claims. The Common Working File can detect certain
improper payments during prepayment validation.

Section 1886(d) of the Act established the prospective payment system for inpatient hospital
services. Under the prospective payment system, CMS pays hospital costs at predetermined
rates for patient discharges based on the diagnosis-related group to which a beneficiary’s stay is
assigned. The “Medicare Claims Processing Manual,” Pub. No. 100-04, Chapter 3, section 10.1,
requires that hospitals submit claims on the appropriate forms for all provider billings, and
Chapter 1, section 80.3.2.2, requires that claims be completed accurately to be processed
correctly and promptly.

The diagnosis-related group payment is, with certain exceptions, payment in full to the hospital
for all inpatient services. Section 6011 of the Omnibus Budget Reconciliation Act of 1989
(P.L. No. 101-239) provides that prospective payment system hospitals receive payment, in
addition to the basic diagnosis-related group payment, for blood clotting factor administered to
hemophilia inpatients. Also, section 1886(d)(5)(A)(ii) of the Act provides for an additional
payment, known as an outlier payment, to hospitals for cases incurring extraordinarily high costs.

During calendar years 2004 through 2006, AdminaStar Federal was the fiscal intermediary for
Illinois, Indiana, Kentucky, and Ohio. AdminaStar Federal processed approximately 5.2 million
inpatient claims during this period, 303 of which resulted in payments of $200,000 or more
(high-dollar payments) to hospitals that each received 10 or more such payments. In January
2007, National Government Services assumed the business operations of AdminaStar Federal.

OBJECTIVE

Our objective was to determine whether selected high-dollar Medicare payments that National
Government Services made to hospitals for inpatient services were appropriate.

SUMMARY OF FINDING

Of the 303 high-dollar payments that National Government Services made to hospitals for
inpatient services for calendar years 2004 through 2006, 39 were appropriate. The remaining
264 payments included net overpayments totaling $7,444,904. At the start of our audit, hospitals
had refunded overpayments totaling $2,752,167 for 4 claims but had not refunded net
overpayments totaling $4,692,737 for 260 claims.




                                                i
Contrary to Federal guidance, hospitals inaccurately reported the number of billing units for
blood clotting factor, reported incorrect diagnosis and procedure codes, and reported excessive
charges that resulted in inappropriate outlier payments. Hospitals attributed most of the incorrect
claims to data entry errors and insufficient documentation. National Government Services made
these incorrect payments because neither the Fiscal Intermediary Standard System nor the
Common Working File had sufficient edits in place to detect and prevent the overpayments.

RECOMMENDATIONS

We recommend that National Government Services:

    •   recover the $4,692,737 in identified net overpayments,

    •   use the results of this audit in its provider education activities related to data entry
        procedures and proper documentation, and

    •   consider implementing controls to identify and review all payments greater than
        $200,000 for inpatient services.

NATIONAL GOVERNMENT SERVICES COMMENTS

In written comments on our draft report, National Government Services agreed with our
recommendations and described corrective actions that it had taken or planned to take. National
Government Services’ comments are included in their entirety as the Appendix.




                                                  ii
                                                 TABLE OF CONTENTS

                                                                                                                         Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Medicare Fiscal Intermediaries....................................................................1
              Claims for Inpatient Services.......................................................................1
              National Government Services ....................................................................2

         OBJECTIVE, SCOPE, AND METHODOLOGY ....................................................2
              Objective ......................................................................................................2
              Scope............................................................................................................2
              Methodology ................................................................................................2

FINDING AND RECOMMENDATIONS.......................................................................3

          FEDERAL REQUIREMENTS................................................................................3

          INAPPROPRIATE HIGH-DOLLAR PAYMENTS ...............................................4

          RECOMMENDATIONS.........................................................................................4

          NATIONAL GOVERNMENT SERVICES COMMENTS ....................................4

APPENDIX

          NATIONAL GOVERNMENT SERVICES COMMENTS




                                                                   iii
                                              INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Fiscal Intermediaries

CMS contracts with fiscal intermediaries to, among other things, process and pay Medicare
Part A claims submitted by hospitals. The intermediaries’ responsibilities include determining
reimbursement amounts, conducting reviews and audits, and safeguarding against fraud and
abuse. Intermediaries use the Fiscal Intermediary Standard System and CMS’s Common
Working File to process hospitals’ inpatient claims. The Common Working File can detect
certain improper payments during prepayment validation.

In calendar years (CY) 2004 through 2006, fiscal intermediaries processed and paid
approximately 40.6 million inpatient claims, 8,287 of which resulted in payments of $200,000 or
more (high-dollar payments).

Claims for Inpatient Services

Section 1886(d) of the Act established the prospective payment system (PPS) for inpatient
hospital services. Under the PPS, CMS pays hospital costs at predetermined rates for patient
discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment in full to
the hospital for all inpatient costs associated with the beneficiary’s stay. The “Medicare Claims
Processing Manual,” Pub. No. 100-04, Chapter 3, section 10.1, requires that hospitals submit
claims on the appropriate forms for all provider billings, and Chapter 1, section 80.3.2.2, requires
that claims be completed accurately to be processed correctly and promptly.

Section 6011 of the Omnibus Budget Reconciliation Act of 1989 (P.L. No. 101-239) provides
that PPS hospitals receive payment, in addition to the basic DRG payment, for blood clotting
factor administered to hemophilia inpatients. Also, section 1886(d)(5)(A)(ii) of the Act provides
for an additional Medicare payment, known as an outlier payment, to hospitals for cases
incurring extraordinarily high costs. 1 The fiscal intermediary identifies outlier cases by
comparing the estimated costs of a case with a DRG-specific fixed-loss threshold. 2 To estimate
the costs of a case, the fiscal intermediary uses the Medicare charges that the hospital reports on
its claim and the hospital-specific cost-to-charge ratio. Inaccurately reporting charges could lead
to excessive outlier payments.
1
 Outlier payments occur when a hospital’s charges for a particular Medicare beneficiary’s inpatient stay
substantially exceed the DRG payment.
2
 A DRG-specific fixed-loss threshold is a dollar amount by which the costs of a case must exceed payments to
qualify for an outlier payment.



                                                         1
National Government Services

During CYs 2004 through 2006, AdminaStar Federal was the fiscal intermediary for Illinois,
Indiana, Kentucky, and Ohio. AdminaStar Federal processed approximately 5.2 million
inpatient claims during this period, 472 of which resulted in high-dollar payments. In January
2007, National Government Services assumed the business operations of AdminaStar Federal.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether selected high-dollar Medicare payments that National
Government Services made to hospitals for inpatient services were appropriate.

Scope

We reviewed 303 of the 472 high-dollar payments for inpatient claims that National Government
Services processed during CYs 2004 through 2006. The 303 high-dollar payments, which
totaled $96,092,571, were made to hospitals that each received 10 or more such payments during
our audit period. We separately reviewed the remaining 169 high-dollar payments totaling
$63,502,261 that were made to hospitals that each received fewer than 10 such payments (report
number A-05-08-00027).

We limited our review of National Government Services’ internal controls to those applicable to
the 303 high-dollar claims because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review allowed us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from CMS’s National
Claims History file, but we did not assess the completeness of the file.

We conducted our fieldwork from December 2007 through September 2008. Our fieldwork
included contacting National Government Services, located in Chicago, Illinois, and the hospitals
that received the high-dollar payments.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    used CMS’s National Claims History file to identify inpatient claims with high-dollar
        Medicare payments;

   •    reviewed available Common Working File claim histories for the 303 high-dollar
        payments to determine whether the claims had been canceled and superseded by revised
        claims and whether payments remained outstanding at the time of our fieldwork;




                                                2
    •   contacted the hospitals that received the high-dollar payments to determine whether the
        information on the claims was correct and, if not, why the claims were incorrect and
        whether the hospitals agreed that refunds were appropriate; and

    •   validated with National Government Services that partial inappropriate payments
        occurred and refunds were appropriate.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                               FINDING AND RECOMMENDATIONS

Of the 303 high-dollar payments that National Government Services made to hospitals for
inpatient services for CYs 2004 through 2006, 39 were appropriate. The remaining 264
payments included net overpayments totaling $7,444,904. At the start of our audit, hospitals had
refunded overpayments totaling $2,752,167 for 4 claims but had not refunded net overpayments
totaling $4,692,737 for 260 claims.

Contrary to Federal guidance, hospitals inaccurately reported the number of billing units for
blood clotting factor, reported incorrect diagnosis and procedure codes, and reported excessive
charges that resulted in inappropriate outlier payments. Hospitals attributed most of the incorrect
claims to data entry errors and insufficient documentation. National Government Services made
these incorrect payments because neither the Fiscal Intermediary Standard System nor the
Common Working File had sufficient edits in place to detect and prevent the overpayments.

FEDERAL REQUIREMENTS

Section 1815(a) of the Act prohibits Medicare payment for claims not supported by sufficient
documentation. The “Medicare Claims Processing Manual,” Pub. No. 100-04, Chapter 3, section
10.1, requires that hospitals submit claims on the appropriate forms for all provider billings, and
Chapter 1, section 80.3.2.2, requires that claims be completed accurately to be processed
correctly and promptly.

Section 6011 of the Omnibus Budget Reconciliation Act of 1989 (P. L. No. 101-239) provides
that PPS hospitals receive an additional payment for the cost of administering blood clotting
factor to Medicare beneficiaries with hemophilia during an inpatient stay. 3 The payment is
based on a predetermined price per unit of clotting factor multiplied by the number of units
provided.

3
 Section 6011(d) was amended by section 13505 of the Omnibus Budget Reconciliation Act of 1993 (P.L. No. 103-
66) and section 4452 of the Balanced Budget Act of 1997 (P.L. No. 105-33) effective for discharges occurring on or
after June 19, 1990, and before October 1, 1994, and for discharges occurring on or after October 1, 1997,
respectively.



                                                        3
Section 1886(d)(5)(A)(ii) of the Act provides for Medicare outlier payments to hospitals, in
addition to prospective payments, for cases incurring extraordinarily high costs. CMS provides
for these additional payments, as specified in 42 CFR § 412.80, to hospitals for covered inpatient
hospital services furnished to a Medicare beneficiary if the hospital’s charges, as adjusted by the
hospital-specific cost-to-charge ratio, exceed the DRG payment for the case.

INAPPROPRIATE HIGH-DOLLAR PAYMENTS

National Government Services made 260 net overpayments totaling $4,692,737, which hospitals
had not refunded prior to the start of our audit. The overpayments involved hospital claims
submitted with inaccurate data, including the incorrect number of billing units for blood clotting
factor, incorrect diagnosis and procedure codes, and excessive charges that resulted in
inappropriate outlier payments.

Hospitals attributed most of the incorrect claims to data entry errors and insufficient
documentation. National Government Services made these inappropriate payments because
neither the Fiscal Intermediary Standard System nor the Common Working File had sufficient
edits in place to detect and prevent these types of inappropriate payments. In effect, CMS relied
on hospitals to notify the fiscal intermediaries of inappropriate payments and on beneficiaries to
review their “Medicare Summary Notice” and disclose any inappropriate payments. 4

RECOMMENDATIONS

We recommend that National Government Services:

     •   recover the $4,692,737 in identified net overpayments,

     •   use the results of this audit in its provider education activities related to data entry
         procedures and proper documentation, and

     •   consider implementing controls to identify and review all payments greater than
         $200,000 for inpatient services.

NATIONAL GOVERNMENT SERVICES COMMENTS

In written comments on our draft report, National Government Services agreed with our
recommendations and described corrective actions that it had taken or planned to take. National
Government Services’ comments are included in their entirety as the Appendix.




4
 The fiscal intermediary sends a “Medicare Summary Notice” to the beneficiary after the hospital files a claim for
Part A service(s). The notice explains the service(s) billed, the approved amount, the Medicare payment, and the
amount due from the beneficiary.



                                                         4
APPENDIX
APPENDIX
